Audit of NSF’s Law Enforcement
   Program in the Antarctic




     National Science Foundation
     Office of Inspector General


           August 30, 2005
            OIG 05-2-009
Table of Contents
         Introduction.….……………..……………………………..………….…1

         Objectives, Scope, and Methodology…….…………………….….…2

         Results of Audit……………………..……………………..……………4

         Appendix A: Agency Comments....…………………………..………7

         Appendix B: U.S. Deputy Attorney General’s Authorization
                     Memorandum….………………………………..………9
Introduction

                  The United States maintains an active influential presence in
                  Antarctica designed to support the range of U.S. Antarctic interests.
                  After 1971, the U.S. President assigned the National Science
                  Foundation (NSF) overall responsibility for activities in Antarctica.
                  The NSF manages three year-round civilian research stations in
                  Antarctica with a total population in the austral summer1 of over
                  1,300 researchers, contractors, and NSF staff. In the austral
                  winter2, the population decreases to approximately 250.


                  Prior to 1984, there were no provisions in the judicial system to
                  prosecute civilians for any criminal activity they might engage in
                  while on the continent of Antarctica. To protect its U.S. citizens, in
                  1984, Congress expanded federal and special maritime laws to
                  include any offenses committed by or against U.S. nationals in any
                  place outside the jurisdiction of any nation, including Antarctica.
                  The special maritime laws address such crimes as murder,
                  maiming, rape, and arson. The maritime laws also address
                  additional federal offenses, including treason and bribing a federal
                  official.


                  Special Deputy Appointment
                  Due to the harsh climate in Antarctica, the two more populated
                  stations, McMurdo and the South Pole, are inaccessible during the
                  austral winter. If a crime was committed during that time, months
                  could elapse before an agent from the Federal Bureau of
                  Investigation (FBI) or a U.S. Marshal could be transported to
                  Antarctica to investigate, and, if necessary, remove the suspect
                  from the continent. For this reason, NSF believed it is essential to
                  have someone in Antarctica during the austral winter authorized to
                  detain a civilian whose freedom of movement endangered others,
                  or to seize and secure evidence essential to the successful
                  prosecution of a serious crime. Thus, in 1992, the NSF initiated
                  discussions with the U.S. Navy, the Departments of Justice and
                  State, the U.S. Attorney’s Office, the U.S. Marshals Service, and
                  the FBI. As a result of these discussions, the Deputy Attorney
                  General authorized the U.S. Marshals Service to appoint the NSF
                  Station Chief for Antarctica as a Special Deputy U.S. Marshal, with


1
    The austral summer is normally October through February.
2
    The austral winter is normally March through September.


                                                1
         the legal authority to arrest, detain or search a civilian in Antarctica
         (see Appendix B).

         Special Deputy Authority
         Each NSF Station Chief must comply with the following
         requirements prior to his appointment as a Special Deputy U.S.
         Marshal:
            • Be a U.S. citizen;
            • Be an employee of NSF;
            • Successfully complete the standard Federal Law
                Enforcement Training Center (FLETC) Basic Criminal
                Investigators course;
            • Meet the U.S. Marshals Service’s firearms qualification
                requirements;
            • Certify that he has no conviction for domestic violence;
            • Comply with the Department of Justice’s policy on deadly
                force; and
            • Pass a background check.

         Additionally, as a Special Deputy, the Station Chief’s authority is
         restricted to effect sight and probable cause arrests, request and
         execute arrest warrants, and request and execute arrest warrants
         only as to exigent circumstances requiring immediate application of
         criminal law enforcement authority for 24 specific offenses alleged
         to have been committed by United States persons against other
         United States persons. [The 24 specific offenses are listed in
         Appendix B.] As Special Deputy, he is directly supervised by the
         U.S. Marshals and the U.S. Attorney for the District of Hawaii in the
         performance of his duties. Finally, NSF must have the deputation
         reauthorized annually by the U.S. Marshals Service.


Objectives, Scope, and Methodology
         Since September 11, 2001, law enforcement has become one of
         the top priorities of Federal agencies. It is imperative that the
         safety of U.S. citizens and federal property be protected. The
         objectives of this audit were to determine if NSF’s law enforcement
         program is effective and to ensure NSF complies with rules and
         regulations governing the appointment of Special Deputies.

         To meet this objective, we conducted research to identify factors
         important for an effective law enforcement program, including
         procedures for notification, investigation, and prosecution of
         criminal activities. We then identified and compared NSF’s law


                                     2
enforcement procedures to these factors. We interviewed the
current Special Deputy, NSF personnel, and NSF Antarctic support
personnel to identify incidents or concerns they may have regarding
law enforcement in Antarctica. Also, we reviewed documentation
and conducted interviews to identify any incidents/crimes that have
occurred in the past five years to determine if the appropriate law
enforcement authorities were properly and timely notified and the
procedures were working as intended.

To determine whether NSF is in compliance with rules and
regulations governing the appointment of Special Deputy U.S.
Marshals, we reviewed the United States Attorney Manual to
identify the requirements for appointing an individual to a Special
Deputy U.S. Marshal. In addition, we reviewed the requirements
and restrictions imposed by the Deputy Attorney General in the
1992 authorization letter (see Appendix B) and discussed the
appointment procedures with U.S. Marshals Service personnel and
NSF personnel. We reviewed appointment documentation to verify
that the appointments of the NSF Special Deputies are in
compliance with rules and regulation.

We conducted our audit fieldwork between October and December
2004, in accordance with the Comptroller General’s standards for
audits contained in the Government Auditing Standards.




                          3
Results of Audit
                Overall, NSF’s law enforcement program is effective and the
                Special Deputy appointments comply with the rules and regulations
                governing the appointment of special deputies. NSF’s agreement
                with the Department of Justice specifies the requirements
                governing Special Deputy appointments and procedures for
                prosecuting crimes in Antarctica.

Effective Law Enforcement Program in Antarctica
                Because of its remoteness, an effective law enforcement program
                in Antarctica is critical to ensuring the safety of U.S. citizens and
                protection of federal property. At a minimum, an effective law
                enforcement program ensures that citizens and property are
                protected from immediate harm; evidence is properly secured;
                incidents are investigated by the appropriate federal agency;
                investigations are conducted as timely as possible; and
                investigations are presented to the appropriate prosecutorial
                authority. In addition, investigations should be conducted by
                personnel that are properly trained and equipped.

                Overall, NSF’s procedures and practices ensure a generally
                effective law enforcement program and are sound. Although NSF
                has experienced only one serious incident in Antarctica that
                required law enforcement intervention, when the incident occurred,
                the Special Deputy followed NSF and Federal law enforcement
                procedures. Following these procedures resulted in the arrest and
                successful prosecution of the suspect.

                The Special Deputy U.S. Marshal is the station manager at
                McMurdo and for law enforcement purposes, reports to the U.S
                Marshals Service in Hawaii. When a serious incident or crime
                occurs, NSF procedures call for the Special Deputy to first diffuse
                any immediate threat to human safety. The Special Deputy then
                reports the incident to the U.S. Marshals Service and/or the Federal
                Bureau of Investigation (FBI) in Hawaii.3 Under the FBI’s direction,
                the Special Deputy may arrest or detain a suspect, and/or conduct
                a search. Because only the Department of Justice has authority to
                prosecute crimes in Antarctica, the FBI coordinates each
                investigation with the appropriate U.S. Attorney’s office. Thus, the
                Special Deputy acts under the supervision of the U.S. Marshals
                Service, the FBI, and the U.S. Attorney to secure evidence and

3
 If the incident occurs at Palmer Station in Antarctica, the Special Deputy works with the FBI in
Miami, Florida.


                                                 4
detain a suspect until either the FBI or U.S. Marshals arrive to
conduct the investigation and take the suspect into custody.

Crime is rare in Antarctica but these procedures were tested when
a U.S. citizen assaulted two other U.S. citizens at McMurdo Station
in 1996. The Special Deputy properly detained the suspect and
promptly contacted the U.S. Marshals Service in Hawaii. Under the
direction of the FBI and the U.S. Attorney in Hawaii, the Special
Deputy secured the evidence and placed the suspect under
continual observation until the FBI Agents arrived and assumed
control of the situation. In coordination with the U.S. Attorney’s
office in Hawaii, the FBI investigated the incident, arrested the
suspect, and transported him back to the U.S. for prosecution.

Although NSF’s law enforcement program is generally effective, the
safety of U.S. citizens and federal property could be enhanced by
properly equipping the Special Deputy. The Special Deputy is
firearms-qualified; however, he does not carry firearms because
NSF does not permit lethal weapons in Antarctica.

Instead, when a crime is committed in Antarctica, the Special
Deputy is expected to defuse the situation through verbal
discourse. Although the Special Deputies have never been in a
situation where they could not control the situation through
communication, there is the potential that they could be put in a
situation where alternative tools would be necessary.
Nevertheless, NSF has not explored equipping the Special Deputy
with other non-deadly weapons, such as a baton or pepper spray,
to assist him in performing his duties. Without a properly equipped
Special Deputy, NSF cannot ensure that the threats or dangers to
U.S. citizens can be promptly and safely removed, and citizens’
rights and federal property are adequately protected.


Recommendations

To provide the Special Deputy U.S. Marshal in Antarctica with
essential tools needed to carry out critical law enforcement duties,
we recommend that the Director, Office of Polar Programs:

1-1) Coordinate with the U.S. Marshals Service to select an
appropriate non-lethal weapon for the Special Deputy U.S. Marshal
to use in Antarctica.

1-2) Issue and train the Special Deputy U.S. Marshal in Antarctica
on the non-lethal weapon selected.



                           5
                NSF Actions

                NSF concurred with the recommendations, and has determined
                that it will equip its Special Deputies with pepper spray and a baton.
                NSF is currently procuring these non-lethal weapons and expects
                to have them available for use by the start of the operating season,
                October 4, 2005. The Special Deputy who will be on duty during
                the October 2005 to February 2006 season recently completed
                training on the use of these weapons. The second Special Deputy
                will complete the training prior to his deployment in February 2006.

                NSF’s response to the official draft is included in its entirety as
                Appendix A to this report.

Compliance with Rules and Regulations
                NSF is in compliance with rules and regulations governing the
                appointment of Special Deputies. These rules and regulations are
                primarily specified in the 1992 Deputation letter from the U.S.
                Attorney General, the U.S. Attorney Manual, and 18 U.S.C. Section
                922 (g)(9), the Lautenberg Amendment.4

                All of the Special Deputy appointments from January 1999 through
                December 2004 met the requirements listed in the Department of
                Justice Deputy Attorney General’s 1992 Deputation letter and the
                Department of Justice rules and regulations. Specifically, each of
                the Special Deputies completed the standard Federal Law
                Enforcement Training Center (FLETC) Basic Criminal Investigators
                course, was a NSF employee, was firearms qualified, certified each
                had no convictions for domestic violence, and agreed to the
                Department of Justice’s policy on the use of deadly force.




4
 The Lautenberg Amendment prohibits any person who has been convicted of a misdemeanor
crime of domestic violence from lawfully possessing a firearm or ammunition. (18 U.S.C § 9(g))


                                               6
Appendix A: Agency Response




                         7
8
Appendix B: U.S. Deputy Attorney General’s Authorization




                            9
10
